                    AUDIT OF SBA’S PLANNING AND
                   ASSESSMENT FOR IMPLEMENTING
                 PRESIDENTIAL DECISION DIRECTIVE 63


                      AUDIT REPORT NUMBER 0-27


                          SEPTEMBER 26, 2000




This report may contain proprietary information subject to the provisions
of 18 usc 1905 and must not be released to the public or another agency
without permission of the Office of Inspector General.
                   U.S. SMALL BUSINESS ADMINISTRATION
                      OFFICE OF INSPECTOR GENERAL
                          WASHINGTON, D.C. 20416


                                                                AUDIT REPORT
                                                      Issue Date: September 26, 2000
                                                      Number: 0-27

To:           Lawrence E. Barrett, Chief Information Officer


From:         Robert G. Seabrooks, Assistant Inspector General for Auditing

Subject:      Audit of SBA’s Planning and Assessment for Implementing
              Presidential Decision Directive 63

       As a result of a joint initiative by the President’s Council on Integrity and
Efficiency (PCIE) and Executive Council on Integrity and Efficiency (ECIE), we
completed the first of four planned audits of SBA’s critical infrastructure
protection program. This report covers SBA’s planning and assessment activities
for protecting its critical cyber-based infrastructures.


                                   BACKGROUND

        Presidential Decision Directive 63 (PDD 63), issued in May 1998, calls for
a national effort to assure the security of the United States’ critical infrastructures.
Critical infrastructures are the physical and cyber-based systems essential to the
minimum operations of the economy and government. They include, but are not
limited to, telecommunications, banking and finance, energy, transportation, and
essential government services. Advances in information technology have
caused these infrastructures to become increasingly automated and inter-linked.
These same advances have also created new vulnerabilities to equipment
failures, human error, weather and other natural causes, and physical and cyber
attacks. PDD 63 requires every department and agency of the Federal
Government to develop and implement a plan for protecting its own critical
infrastructure.

        The Critical Infrastructure Assurance Office has set a December 2000
target date for Federal Agencies and Departments to assess their critical
information systems vulnerabilities, adopt a multi-year funding plan to remedy
them, and create a system for continuous updating. Although SBA was not
identified as a “Tier One” or “Tier Two” agency with specific milestones for the
completion of PDD 63 requirements, the Agency has committed to the
completion of those requirements, and has, in fact, completed some of the
requirements.


                 OBJECTIVES, SCOPE AND METHODOLOGY

         The objective of the audit was to evaluate the adequacy of SBA’s Critical
Infrastructure Protection Plan (CIPP), infrastructure identification efforts, and
initial vulnerability assessments. To accomplish this objective, we reviewed the
Agency’s CIPP and related materials, and interviewed SBA and contractor
personnel associated with these products. We conducted the review following
guidance provided by the PCIE / ECIE working group on critical infrastructure
assurance. That guidance incorporated criteria from PDD 63, “The National Plan
for Information Systems Protection,” various Executive Orders and circulars, and
relevant laws and regulations. Fieldwork was performed at SBA’s Central Office
in Washington, DC from January to May 2000. The audit was conducted in
accordance with Government Auditing Standards.


                                 AUDIT RESULTS

        SBA has made significant progress toward implementing key aspects of
PDD 63, but additional actions are still needed. In November 1998, the agency
completed a CIPP that identified a number of tasks to be accomplished.
Subsequently, however, based on feedback from the Critical Infrastructure
Assurance Office, the agency shifted the focus of its information systems security
efforts to related areas such as PDD 67 (Continuity of Operations), Year 2000
Contingency Planning, and recommendations made in previous OIG audits of
information systems controls. Although these efforts satisfied a number of PDD
63 requirements, the Agency did not complete all of the tasks identified in its
CIPP and needs to refocus its efforts toward meeting PDD 63 requirements.

Complete the Identification of the Critical Infrastructure

        PDD 63 requires all Federal Government agencies to develop and
implement plans for protecting their own critical infrastructures. According to the
Critical Infrastructure Assurance Office, a key first step in this process is
“determining what information systems, data, and associated assets – facilities,
equipment, personnel – constitute the critical infrastructure….”

       SBA’s CIPP identified five critical business functions, and called for a
study to identify and establish the boundaries of the infrastructure that supports
those functions. Performance of this study was delayed, however, pending
completion of related efforts. As a result, SBA has not fully identified and
established the boundaries of its critical infrastructure, and is therefore, not in
position to meet the other requirements of PDD 63.


                                          3
Perform Vulnerability Assessments

         The next step in infrastructure assurance is performing vulnerability
assessments. SBA’s CIPP also included a task for conducting vulnerability
assessments for the cyber infrastructure supporting its critical business functions.
The Agency developed a schedule for conducting vulnerability assessments on
systems with security weaknesses identified in previous OIG audits, and as of
May 2000, has completed those assessments for systems supporting two of its
key business functions. These assessments identified vulnerabilities and
recommended corrective actions. Because of the shift in focus to related efforts
and because it has not completed the study to identify the boundaries of its
critical infrastructure, however, SBA has not performed vulnerability assessments
for all of its critical infrastructure.

Complete Remedial Plans

       PDD 63 and “The National Plan for Information Systems Protection”
provide that remedial plans should be developed based on the vulnerability
assessments. These plans should identify timelines for implementation,
assignment of responsibilities, and funding. The vulnerability assessments SBA
performed contained recommendations for correcting the identified
vulnerabilities, but they did not identify timelines for implementation,
responsibilities and funding. As a result, a successful remedial effort may not be
achieved.

Update the Critical Infrastructure Protection Plan

        PDD 63 requires agencies to update their plans for protecting their critical
infrastructures every two years. SBA originally planned to update its November
1998 CIPP in May 2000, but this was delayed pending completion of additional
vulnerability assessments. The plan needs to be updated to fully identify how the
agency intends to protect its critical infrastructure and to reflect the progress it
has made. The updated plan should identify the tasks remaining to be
accomplished and set milestones for their completion. It should also reference
the related materials and accomplishments (e.g. vulnerability assessments and
business resumption plans) to identify the PDD 63 requirements that have been
satisfied. Based on guidance from the PCIE / ECIE Working Group on
Infrastructure Assurance, the plan should:

   •   Provide for evaluation of new assets to determine whether they should be
       included in the critical infrastructure,

   •   Identify a schedule for completing and updating Vulnerability Assessments
       and Remedial Plans,



                                         4
   •   Provide for periodic testing and re-evaluation of risk mitigation steps
       (policies, procedures, and controls) by agency management,

   •   Require a review of existing policies and procedures to determine whether
       the agency should revise them to reflect PDD 63 requirements,

   •   Identify how security-planning procedures are incorporated into the basic
       design of new cyber-based systems and new operational programs, and

   •   Require the agency to identify the resource and organizational
       requirements for implementing PDD 63.

Develop a Multi-Year Funding Plan

       PDD 63 and “The National Plan for Information Systems Protection” call
for agencies to develop and adopt multi-year funding plans to remedy security
weaknesses identified in their vulnerability assessments. SBA needs to develop
a multi-year funding plan to ensure sufficient funding to meet PDD 63
requirements.

Include Infrastructure Assurance Functions in SBA’s Strategic Planning
and Performance Measurement Framework

       PDD 63 provides for agencies to include infrastructure assurance
functions within their Government Performance and Results Act (GPRA) strategic
planning and performance measurement framework. SBA’s GPRA plans did not
include infrastructure assurance objectives and plans. As a result, infrastructure
assurance functions may not receive the management attention necessary to
meet PDD 63 requirements.


                              RECOMMENDATIONS

   We recommend that the Chief Information Officer:

1. Complete the study to determine what information systems, data, and
   associated assets – facilities, equipment, personnel – constitute the agency’s
   critical infrastructure.

2. Conduct or complete vulnerability assessments on the critical infrastructure
   by December 31, 2000.

3. Develop remedial plans to address critical infrastructure vulnerabilities. The
   plans should address responsibilities, milestones for completion, and funding.

4. Update the Critical Infrastructure Protection Plan (CIPP).


                                         5
5. Develop and adopt a multi-year funding plan to remedy the vulnerabilities
   identified by Vulnerability Assessments.

6. Include infrastructure assurance functions within the agency’s Government
   Performance and Results Act (GPRA) strategic planning and performance
   measurement framework.


                      SBA MANAGEMENT’S RESPONSE

SBA’s Chief Information Officer agreed with the recommendations.

                                      ***
       The findings included in this report are the conclusions of the Auditing
Division based upon the auditors’ review of the agency’s Critical Infrastructure
Protection Plan and related materials. The findings and recommendations are
subject to review and implementation of corrective action by your office
following the existing Agency procedures for audit follow-up and
resolution.

       This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without permission
of the Office of Inspector General.

      Should you or your staff have any questions, please contact Robert G.
Hultberg, Director, Business Development Programs Group at (202) 205-7204.


Attachment




                                        6
                                                                                             ATTACHMENT


                                       REPORT DISTRIBUTION


Recipient                                                                                      No. of Copies


Associate Deputy Administrator for Management and Administration ....... 1

Office of the Chief Financial Officer
Attention: Jeffrey Brown............................................................................ 1

General Counsel ........................................................................................ 2

U.S. General Accounting Office ................................................................. 1
